     Department of Homeland Security




     FEMA Should Recover $13.8 Million in FEMA Public 

    Assistance Funds Awarded to Cedar Rapids, Iowa, for 

                Ineligible Hydroelectric Plant 





DD-13-09                                           May 2013

                            orn e!:: OF lNSPECTOR GENERAL
                                Ikp1Irtm em of Jlomdlll1d S~'Ilrity




                                           MAY      111m

MEM ORANDUM FOR.                Deborah Ingram




FROM :




SUaJKT:                         fEMA Should Recover $13.8 Million In fEMA Public
                                Assisronce funds Awarded to Cedar Rapids, lowo,for
                                Inelir;ible Hydroelf'ctric Plant
                                FEMA Disaster Number 1763-DR· IA
                                Public Assistanc~ Id ent ificatio~ Numbf'r 113-12000-00
                                Aud it Report Number 00-13-09

we are currently auditing $330 million of FEMA Publi c Assistance funds awar ded to th e
CIty of Ce(! ar Rapi ds, Iowa (City). The Iowa Homeland S<!<:urity an d Emergency
Management Divi5ion {HSEMO), a FEMA grant ee, awarded t he5e funds t o t he Oty for
di!i.ister recovery work related to flooding tha t occurred during the period May 2S to
August 13, 2008. The purpose of t his memorandum Is to advi~e you of iln Issue that
requires your immediate attention.

As discusse d be low, FEMA agreed t o fund the repair ohhe City's hydroe lectric facility
{facility) under Project Worbheet 1415 based on a second-level appea l rullng by FEMA
headquarter.~. Ho weve r, the City Included materia lly inaccurate inform ation In lts
appea l documents th~t FEM A headquarters relied upon to m ak~ its favorable ruling.
Further, t he we ight of the eviden ce that we obtai ned shows t hat th e facility I~ not
eligib le fo r FEMA fundin g. The facility Is not eligible because it wa s Inactive at th e time
of the disaster, an d did not meet any of the three regu latory exception s needed t o fund
the prujEoct, 'four attention to this matter is Importan t because the City i$ moving
forward WIth its pla ns to redir«t the $13,8 m Illion III fund ing to an alternate project.

We are conducting this perform,mce ~udit pu r~uant to t he InspecrorGf'nerQ1 ACf 0/
1978, as amended, and i!II:cording to genel ally accepted 80~rnment auditing standards.
Our ove rall objective is t o determine whe ther the City accounted for and e~pended
FEMA Public Ass istance funds accordIng to Fede ral regulations and FEMA guidelines. At
                               OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


the conclusion of our audit, we plan to issue our complete audit report including any
additional findings and recommendations.


                                             BACKGROUND

The facility is a three-turbine hydroelectric generating plant that began operation in
1986. It produced a small amount of the City’s total commercial and residential
electrical needs. From 1997 through early 2007, the City hired North American Hydro to
operate and maintain the facility. The facility has been inactive since January 2007,
when frazil river ice damaged the trash racks and straightening vanes of two of the
three turbine generators.1 In June 2008, 17 months following the ice damage, a
federally declared flooding disaster caused severe damage to the facility. Before the
January 2007 ice damage, the 21-year-old facility needed significant capital
expenditures to continue operating efficiently over the long term. Also, according to
the City’s hydroelectric consultants, the facility generally produced about 20 percent
less electricity than expected because its design allows it to capture available water flow
only about 35 percent of the time.

Generally, an inactive facility is not eligible for FEMA funding. However, Federal
regulation allows funding if a facility can meet at least one of three exceptions.
According to 44 Code of Federal Regulations (CFR) 206.226(k)(2), facilities that were not
in active use at the time of the disaster are not eligible except in those instances where
(1) the facilities were only temporarily inoperative for repairs or remodeling, or
(2) active use by the applicant was firmly established in an approved budget, or (3) the
owner can demonstrate to FEMA's satisfaction an intent to begin use within a
reasonable time.

Below is a chronology of significant funding events.

    •	 In July 2010, FEMA Region VII deemed the facility ineligible under Project
       Worksheet 1415 because the facility was not in active use at the time of the
       federally declared disaster.

    •	 In August 2010, the City made its first-level appeal of the ineligibility decision to
       FEMA Region VII’s Regional Administrator. The City asserted that even though
       the facility was not in use at the time of the June 2008 flood, it met all three of
       the conditions to qualify for an exception to FEMA’s inactive facilities regulation.

1
  Frazil ice is moving water on the verge of freezing. It freezes when it touches a stationary object. A
trash rack is a grated structure used to keep floating debris from entering the turbines.


www.oig.dhs.gov                                       2	                                           DD-13-09
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



   •	 In December 2010, FEMA Region VII’s Regional Administrator denied the City’s
      appeal, stating that the facility was not in active use at the time of the disaster;
      the City had not provided evidence that it intended to repair the facility; and its
      actions following the disaster demonstrated its intent to abandon, sell, or
      otherwise dispose of the facility and use FEMA funding for another project.

   •	 In February 2011, the City made its second-level appeal to FEMA headquarters,
      asserting that the facility was only temporarily inoperative from the ice damage
      while the City considered its options to repair or dispose of the facility.

   •	 In April 2012, FEMA headquarters reversed Region VII’s decision, stating that,
      because the City was examining its options, the facility should not be disqualified
      from eligibility under 44 CFR 206.226(k)(2).


                                          RESULTS

We agree with FEMA Region VII that the hydroelectric facility was inactive at the time of
the federally declared disaster and did not meet any of the three exceptions to FEMA’s
inactive facility regulation. In its second appeal to FEMA headquarters, the City
provided inaccurate information about facts and circumstances related to damages
from the January 2007 ice storm. Further, the City included inaccurate information in its
appeals to FEMA regarding its budget and how much it would cost and how long it
would take to repair the 2007 ice damage to the facility. These inaccuracies are
important because FEMA headquarters relied on this information when deciding to rule
in favor of the City. If the City had submitted accurate information, FEMA headquarters
might have ruled differently. Therefore, we urge FEMA headquarters to reconsider its
decision to fund the $13.8 million estimated for this project.

As discussed in this report, FEMA may fund inactive facilities only if (1) the facilities were
only temporarily inoperative for repairs or remodeling, or (2) active use by the applicant
was firmly established in an approved budget, or (3) the owner can demonstrate to
FEMA's satisfaction the intent to begin use within a reasonable time. The following
discusses why the City did not demonstrate that any of these exceptions applied.




www.oig.dhs.gov                               3	                                     DD-13-09
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


The Facility Was Not Temporarily Inoperative for Repairs or Remodeling

The facility was not temporarily inoperative for repairs or remodeling, but rather was
inoperative while the City considered whether to continue operations at all. In fact, at
the time of the disaster, the facility had been inoperable for 17 months. During this
time, the City took no action to begin the minor repairs needed to restore operability.

The City asserts that the facility was only temporarily inoperative while it considered its
ice-damage repair options. However, this assertion is not accurate because the ice
storm caused relatively minor damage that the City could have repaired in 7 to
8 months for about $270,000. Although an applicant should have time to assess the
viability of repairing a facility, 17 months is an unreasonably long time to make a
decision about minor repairs, especially when the City had insurance that should have
covered much of the costs.

The City demonstrated little interest in returning the facility to operation during the
17 months between the undeclared ice damage and the federally declared flooding
damage. Rather, the City chose not to operate the 21-year-old facility while it assessed
the continued use of a facility that required major deferred maintenance and had
marginal economic viability. Therefore, the facility did not meet the criteria of being
“only temporarily inoperative for repairs or remodeling.”

In its second appeal, the City incorrectly asserted that to repair the facility would cost
about $1 million and take 24 to 30 months to complete. However, according to the
estimate the City obtained, the ice-related damage would cost only $270,000—not $1
million—and take only 7 to 8 months to repair—not 24 to 30 months.2 Based on a
document we obtained from the City, the estimate the City provided to FEMA
headquarters generally included (1) $270,000 to repair the ice damage, (2) $379,814 to
replace or repair worn parts unrelated to the ice damage (deferred maintenance), and
(3) $378,186 for a custom spare set of bevels that would take 24 to 30 months to make.

The City knew that it needed these additional repairs when it conducted inspections
before and after the ice damage. However, it was only the construction of the custom
spare set of bevels that would take 24 to 30 months, not repairing the ice damage or
performing deferred maintenance. Further, the City would have needed to shut down
the facility for only the 7 months needed to make the repairs caused by the ice-damage,
not for the 24 months needed to make the spare set of bevels.


2
 According to a City official, this is the amount of time needed from conceptualization, through the
design and bidding process and the actual completion of the repair work.


www.oig.dhs.gov                                     4                                           DD-13-09
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


The City also inaccurately told FEMA—in its first appeal documents attached to its
second appeal—that the facility was only temporarily inoperative because the City was
“expending resources to maintain and repair the Hydro Facility at the time of the Flood
of 2008.” However, when we asked the City to provide repair documentation, a City
official said the City had not performed repairs on the facility, but rather had only been
keeping the lights on. After the 2007 ice damage, the City secured the facility and
performed no repair work.

The City Did Not File an Insurance Claim for the Ice Damages

The City maintained a property insurance policy that covered the facility for perils,
including ice damage. However, the City did not pursue a claim against its insurance
policy for the estimated $270,000 in repairs. Not pursuing an insurance claim further
demonstrates that the City had little interest in returning the facility to active use.
Further, according to a retired City official responsible for the facility, City officials knew
as early as 1992 that they would likely shut down the maintenance-intensive facility one
day because it did not make sense to keep having “good money chasing bad money.”

Although the City did not make a claim against its own insurance company, it attempted
to hold its operating and maintenance contractor, North American Hydro, responsible
for the ice damages by asserting a negligence claim against North American Hydro’s
liability insurance policy. However, North American Hydro’s insurance company said
that, because the City failed to address necessary repairs to trash racks #1 and #3, the
City—not North American Hydro—was responsible for the cost of repairing the ice
damage. According to the contractor’s insurance company, in February 2006,
11 months before the ice damage event, North American Hydro told the City that water
intakes #1 and #3 (the ones damaged by the 2007 ice event) needed trash rack repairs.

North American Hydro’s insurance company also implied that these repairs could have
prevented the ice damage. In 2006, the City budgeted $175,000 for repairs, yet it chose
not to make them. Instead, the City reduced the $175,000 to $15,000, enough to cover
only very minor repairs. Not investing in needed repairs further shows that even before
the January 2007 ice damage, the City demonstrated little interest in investing in the
long-term operations of the facility.

The City Contracted for a Study on Its Future Ownership Strategy

The City said it also demonstrated its intent to repair the facility when, in October 2007,
9 months after the ice damage, the City ordered a study titled Economic Evaluation and
Future Ownership Strategy Study that led to the City awarding a contract to Mead and
Hunt in January 2008 to conduct an economic feasibility study. The City said this


www.oig.dhs.gov                                5                                      DD-13-09
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


feasibility study was ongoing at the time of the June 2008 federally declared disaster,
thereby showing the City’s intent to repair the facility.

The City said that it had not made up its mind as to its course of action because the
study was not complete at the time of the federally declared flood. The study tasked
Mead and Hunt to not only evaluate the City’s repair costs and operating options, but
also review past performance and future potential revenue and estimated future costs.
Ordering the study did not demonstrate the City’s intent to repair the facility. Rather, it
demonstrated the City’s intent to address the economic viability of the $1 million
deferred maintenance investment and future ownership and operating options of an
economically marginal hydroelectric plant, including its possible sale or other
disposition.

The City Said That Operating Only One Turbine Would Damage It

Finally, the City told FEMA in its appeal documentation that it voluntarily took the
facility offline following the 2007 ice damage to avoid damage to the one operational
turbine and to avoid the inefficiency of the reduced flow and resulting output. This
statement is also not accurate. A FEMA engineer told us that the remaining turbine
could have safely operated independently of the two damaged turbines. The City took
the facility offline because operating only one of three turbines was not economically
feasible.

In summary, the facility was not temporarily inoperative for repairs or remodeling; it
was inoperative while the City assessed what it should do with its worn-out and
economically marginal hydroelectric plant.

The City Did Not Firmly Establish Active Use in an Approved Budget

The City’s approved budget for the facility did not include sufficient funds to either
operate or repair the facility. The City asserted that it firmly established the facility’s
active use in its approved budget because it had budgeted $320,000 for the facility’s
operating expenses for the 10 fiscal years (FYs) 2009 through 2018. However, this
statement was not accurate for three reasons. First, the annual budget line-item that
City officials referred to in their appeal documents was not for operating expenses, but
rather was for projected capital improvement costs—$70,000 approved for FY 2009 and
from $0 to $50,000 for each of the remaining 9 fiscal years.3 Irrespective of whether the
cost to repair the ice damage was a capital improvement or operating expense, the


3
    The exhibit to this report defines capital expenditures and operating expenses.


www.oig.dhs.gov                                        6                              DD-13-09
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


City’s $70,000 FY 2009 capital improvement budget was not nearly enough to cover the
$270,000 needed to repair the 2007 ice damage.

Second, in March 2008, 3 months before the June 2008 disaster, the City approved its
FY 2009 operating budget for the facility for the period July 1, 2008, through June 30,
2009. The total operating budget was only $13,000. This amount did not relate to
active use, but rather was for costs that the City would incur without the facility
generating electricity. Prior annual operating budgets for the facility had averaged
$199,300 ($152,500 for North American Hydro, the City’s operation contractor, and
$46,800 for electrical delivery costs)—many times more than the $13,000 in the FY 2009
operating budget. Rather, the $13,000 represented only the costs to cover exterior
repair and maintenance, telephone service, and miscellaneous expenses.

Finally, contrary to the City’s assertion that it firmly established the facility’s active use
in its approved budget, the approved facility budget clearly established the City’s intent
not to actively use the facility.

The City Did Not Demonstrate Its Intent To Begin Use Within a Reasonable Time

The City did not demonstrate its intent to begin use within a reasonable time because
the City never decided to repair the facility. The City asserts that it demonstrated its
intent to begin use of the facility within a reasonable time by saying, in its second-level
appeal, that even if it had started the repair process after receipt of an August 2007
inspection report, the earliest the facility could have operated would have been August
2009 because of the estimated 24 to 30 months needed to complete the repairs. This
statement is not accurate because, as discussed previously, the only work requiring
2 years to complete was the manufacturing of a set of custom spare parts—not to repair
the damage caused by the ice storm. The facility could have operated fully as soon as
the City repaired the ice-damaged trash racks and straightening vanes. The City’s
Utilities Director said that these repairs would require 7 to 8 months to complete. The
City could have completed the remaining deferred maintenance items, other than the
custom-made spare parts, with little disruption to operations.

Although the City’s actions before the federally declared disaster did not demonstrate
its intent to begin use within a reasonable time, as discussed above the City did
demonstrate its intent to explore various ownership and operating options for the
facility. Before the federally declared disaster, the City seriously doubted the economic
viability of the facility and was trying to decide how to deal with a worn-out and
economically marginal hydroelectric facility. Further, in the 17 months between the ice
damage and the federally declared disaster, the City made no attempt to repair the
minor ice damage. At the time of the June 2008 flood, the City had not even made the


www.oig.dhs.gov                               7                                       DD-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


decision as to whether it would ever resume facility operations, much less when active
use would begin. Therefore, given these facts and in light of the inaccurate information
the City provided FEMA, the City could not possibly meet the burden to demonstrate, to
FEMA’s satisfaction, its intent to begin use within a reasonable time.


                    DISCUSSIONS WITH CITY AND STATE OFFICIALS

In November 2012, we discussed the finding and recommendation of this report with
City and HSEMD officials, who strongly disagreed with our conclusion that the City did
not meet any of the three regulatory exceptions to FEMA’s inactive facilities rule. They
also strongly disagreed that the City provided inaccurate information to FEMA.
However, as described in this report, the City’s appeal narrative clearly connected the
large and time-consuming deferred maintenance costs with the small and relatively
quick ice-damage repairs. This narrative was inaccurate and led FEMA headquarters to
decide to fund the project. City and HSEMD officials did not refute our facts, but rather
said that the supporting information attached to the appeal narrative did not make a
connection between the repair costs related to ice damage and those related to
deferred maintenance (normal wear and tear). They also said that if FEMA had
reviewed the nearly 200 pages of attachments to the narrative, FEMA would have
understood what the City meant.

However, we cannot expect, and the City should not expect, FEMA to differentiate these
costs when the City’s appeal narrative clearly connected the large and time-consuming
deferred maintenance costs with the small, relatively quick ice-damage repairs.
Following our November discussion, the City and HSEMD provided written responses to
our finding and recommendation. However, these responses did not contradict our
facts or provide any additional information affecting our finding or recommendation.

Following our February 19, 2013, exit conference with City and HSEMD officials, the City
and HSEMD each provided additional written responses. City officials, “in the strongest
terms possible,” disagreed that they presented materially inaccurate information to
FEMA. Further, City officials said that they believed that we mistakenly came to our
conclusion by focusing on very small pieces of information. Similarly, HSEMD officials
said that they believed that we focused our attention on “one or two isolated phrases”
in the City’s appeal documents. HSEMD officials also said that the City took a
reasonable amount of time to study its options before making a final decision about
whether to repair the 2007 ice-related damage.

We disagree. We addressed all material errors in the City’s appeal documents. As this
report demonstrates, the City provided materially inaccurate information to FEMA that


www.oig.dhs.gov                             8                                    DD-13-09
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


FEMA headquarters officials specifically relied on to make their favorable funding
decision. Our report focused on (1) providing multiple facts to prove that the facility did
not meet any of the three criteria necessary to make an inactive facility eligible for
FEMA funding and (2) rebutting all materially inaccurate information that the City
provided to FEMA. We also identified some less-material errors in the information that
the City provided to FEMA, but did not attempt to address or rebut all of the errors.


                                      CONCLUSION

FEMA Region VII was correct when it denied funding for this project. The facility is not
eligible for FEMA funding because it was not in service at the time of the June 2008
federally declared flood and the City did not demonstrate that the facility met any of the
three exceptions to FEMA’s inactive facilities regulation. To the contrary, the City’s
actions before the federally declared disaster demonstrate that the City had (1) no
substantive plans to repair the facility, (2) not budgeted for operating the facility or
conducting the needed repairs, and (3) not made the decision to begin active use, much
less demonstrate that the timeline for the planned active use was reasonable. Also, City
officials made several inaccurate assertions about the facility that FEMA relied on to
make its favorable funding decision. Therefore, FEMA headquarters should reconsider
its eligibility determination and direct FEMA Region VII to deobligate the $13.8 million
planned for this project and put those Federal funds to better use.


                                  RECOMMENDATION

We recommend that the Assistant Administrator, FEMA Recovery Directorate:

Recommendation: Reconsider the decision to fund Project 1415 and deobligate and
put to better use the $13,786,951 ($12,408,256 Federal share) in Federal funds
estimated for the repair of the City’s hydroelectric facility.




www.oig.dhs.gov                              9                                    DD-13-09
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


             DISCUSSIONS WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the preliminary results of our audit with FEMA, HSEMD, and City officials
during our audit and included their comments in this report, as appropriate. We also
provided a draft discussion report in advance to these officials and discussed it at exit
conferences held with FEMA on November 28, 2012, and again on February 15, 2013;
and with HSEMD and the City on February 19, 2013. FEMA decided to withhold
comments on our finding and recommendation until after we issue this report. The City
and HSEMD disagreed with our finding and recommendation.

Within 90 days of the date of this memorandum, please provide our office with a
written response that includes your (1) agreement or disagreement, (2) corrective
action plan, and (3) target completion date for each recommendation. Also, please
include responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until we receive your
response, we will consider the recommendation to be open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Tonda Hadley, Director; Christopher Dodd, Audit
Manager; Patti Smith, Auditor-in-Charge; and Sharon Snedeker, Senior Auditor.

Please call me with any questions at (202) 254-4100, or your staff may call
Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            10                                    DD-13-09
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                                                                               EXHIBIT

                     Definition of Accounting Terms Used In This Report

Capital Expenditures

The City defines capital expenditures as those that may require long-term financing,
costing more than $25,000, and that have at least a 10-year minimum life expectancy.
Examples include costs such as design, property acquisition, and construction. Such
items are not included as part of a department’s normal operating expense budget.

Operating Expenses

Typically, an operating expense is a regular and routine cost incurred to conduct
business, such as wages, utilities, and supplies. The City’s primary operating expenses
for the hydroelectric facility were “Other Professional Services” (contract services to
operate and maintain the facility) and “Wheeling Charge” (cost incurred to produce and
transmit the electricity generated by the facility).

Sources: City of Cedar Rapids officials and budget documents.




www.oig.dhs.gov                                   11                           DD-13-09
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                          APPENDIX 

                                         Report Distribution

Department of Homeland Security
Secretary
Deputy Secretary
Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Director of Local Affairs, Office of Intergovernmental Affairs
Acting Chief Privacy Officer
Under Secretary for Management

Federal Emergency Management Agency
Administrator
Regional Administrator, FEMA Region VII
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaisons, FEMA (Job Code G-12-027) and FEMA Region VII

Grantee/State
Administrator, Iowa Homeland Security and Emergency Management Division
Auditor of State, State of Iowa

Subgrantee
Finance Director, City of Cedar Rapids

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure



www.oig.dhs.gov                                  12                        DD-13-09
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
